 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




  BENEFICIARY PERSPECTIVES OF
    MEDICARE RISK HMOs 1996

Beneficiaries With Functional Limitations,
      Comorbidities and Disabilities




                     JUNE GIBBS BROWN
                      Inspector General

                         AUGUST 1998
                        OEI-06-95-00434
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General. Principal OEI staff included:


REGION                                               HEADQUARTERS

Kristine Kenslow                                     Tricia Davis
Judith V. Tyler                                      Brian Ritchie
Nancy Watts                                          Barbara Tedesco




      To obtain a copy of this report, call the Dallas Regional Office at 1 (800) 848-8960.
    Reports are also available on the World Wide Web at (http://www.dhhs.gov/progorg/oei).

                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To describe and compare the experiences of functionally limited, comorbid and disabled Medicare
HMO beneficiaries with those of healthier beneficiaries.

BACKGROUND

Medicare beneficiaries may join a risk health maintenance organization (HMO) or remain in the
fee-for-service program. In return for a predetermined monthly capitation payment, the HMO
must provide all medically necessary, Medicare-covered services, except hospice care. As of
October 1997, the Health Care Financing Administration (HCFA) reported 307 risk HMO plans
serving 5 million Medicare enrollees.

We conducted a mail survey of 4 thousand enrollees and disenrollees from 40 Medicare HMOs.
The OIG report entitled, "Beneficiary Perspectives of Medicare Risk HMOs 1996" presented an
overview of findings from this survey data. One significant finding in this overview report was
that functionally limited, chronically ill and disabled beneficiaries experienced more service access
problems than healthier beneficiaries.

This report provides an in-depth analysis of the survey responses of functionally limited, disabled
and chronically ill beneficiaries having comorbidities. Recent research has shown less healthy
beneficiaries are less likely to join HMOs and more likely to leave them. Some research has also
found that such vulnerable beneficiaries have less favorable medical outcomes in HMOs than in
fee-for-service delivery systems.

We highlight and distinguish the responses of disenrollees in these groups since their
unsatisfactory experiences may have motivated them to disenroll. Thus, their responses may
sharpen our understanding of shortfalls in HMO services.

FINDINGS

Although our overall report found that Medicare beneficiaries in HMOs generally had good
access to health care services, beneficiaries who are impaired or less healthy experienced
substantially more problems. We found significant differences between these vulnerable
beneficiaries and their healthier counterparts regarding their experiences with enrollment, access
to services, care from their primary doctors and difficulty of obtaining HMO care.

Functionally limited, comorbid and disabled beneficiaries experienced more problems in
accessing services, particularly specialized services, than healthier beneficiaries.

<	 Functionally limited enrollees (8%) and disenrollees (20%), comorbid enrollees (9%) and
   disabled disenrollees (27%) said that their physician failed to give them needed Medicare-
   covered services. These proportions were significantly higher than their corresponding
   reference groups.

                                             )))))))))))
                                                  i
<	 Comorbid enrollees (8%) and disenrollees (21%), and disabled disenrollees (36%) said their
   physician failed to refer them to needed specialists.

<	 More comorbid disenrollees (36%) reported delays in obtaining non-routine services (i.e.
   physical therapy, diagnostic tests) in the six months prior to the survey.

Vulnerable beneficiaries said obtaining care through their HMO was hard or very hard.

Over 37 percent of disabled disenrollees and 24 percent of disabled enrollees said obtaining care
through their HMO was hard or very hard. This was substantially higher than the proportion of
elderly beneficiaries who reported this. Functionally limited and comorbid beneficiaries expressed
similar difficulties in obtaining care.

While able to obtain timely appointments when they were very ill, vulnerable beneficiaries were
more critical of the care received from their primary physicians.

<	 Functionally limited enrollees (16%) and disenrollees (24%), as well as disabled disenrollees
   (39%) more often reported that their primary physicians did not take their health complaints
   seriously.

<	 Disabled (61%) and functionally limited (68%) disenrollees were significantly less likely than
   aged (78%) and less impaired (79%) disenrollees to believe their physician explained all
   treatment options to them.

<	 Fewer functionally limited enrollees (34%) and disenrollees (29%), and disabled enrollees
   (38%) rated the care received from their primary physicians as excellent than their
   corresponding reference groups.

While sizeable proportions of vulnerable enrollees said their health improved, about one fifth of
vulnerable disenrollees said care provided by the HMO caused their health to worsen.

Among vulnerable disenrollees, 23 percent of comorbid, 20 percent of functionally limited, and 18
percent of the disabled beneficiaries reported HMO care caused their health to worsen. However,
on the positive side, 34 percent of disabled, 44 percent of functionally limited, and 52 percent of
comorbid enrollees said their health improved under HMO care.

Disabled beneficiaries and functionally limited and comorbid disenrollees were more likely than
less impaired groups to have been inappropriately asked about their health problems when
applying to their HMO.

Disabled disenrollees (25%) more often reported being asked questions regarding their health at
application than aged disenrollees (17%). Likewise, more functionally limited disenrollees, and
comorbid disenrollees (22%) reported being asked about their health status at the time of
application than beneficiaries without functional limitations or multiple illnesses.



                                             )))))))))))
                                                  ii
RECOMMENDATIONS

We recommend that HCFA address the problems identified by vulnerable beneficiaries in
Medicare risk HMOs and suggest consideration of the following options.

<	 In developing the health status capitation risk adjusters required by the Balanced Budget Act
   of 1997, HCFA should take into account the following considerations:

   C	   Risk adjusters should be sufficiently specific to address the severity of illnesses or
        functional impairments contributing to the health service needs of beneficiaries.

   C	   Multi-plan studies should be conducted concurrently with implementation of the risk
        adjustment methodology to measure adequacy of adjusters and plan and beneficiary
        behavioral responses.

   C	   During the early implementation stage, the capitation methodology could include
        adjustments based upon actual cost experience.

<	 Service access problems encountered by vulnerable populations in HMOs should continue to
   be monitored.

<	 Contractual requirements could be used by HCFA to encourage or require plans to designate
   specialists as primary physicians in appropriate cases or to provide standing referrals for
   ongoing specialty care needs.

<	 HCFA could also use contractual requirements to assure that referral and utilization criteria
   are available on request to providers and to beneficiaries for use in accessing care and
   appealing any denials of service.

AGENCY COMMENTS

We received comments from HCFA and the Assistant Secretary for Planning and Evaluation
(ASPE). HCFA fully concurred with four of the six recommendations in the report and partially
concurred with the remaining two recommendations regarding risk adjustment, by citing
difficulties with implementation of parts of the recommendations. HCFA also offered several
technical comments about sample size and questioned the connection between the report's
analyses and our recommendations for risk adjustment. ASPE concurred with our
recommendations, but suggested further study of the disabled population, and also noted some
concerns on the sample size and composition. Based on HCFA and ASPE comments, we clarified
information about our sample and cited literature demonstrating the connection between access to
care issues and risk adjustment.




                                              )))))))))))
                                                   iii
                              TABLE OF CONTENTS

                                                                                                                PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


    Enrollment Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


    Perceived Health Status . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


    Access to Health Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


    Primary HMO Physician Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


    Assessing HMO Overall Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


BIBLIOGRAPHY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDICES


    Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


    Demographic Data for Survey Respondents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


    Supplementary Tables for Beneficiary Survey Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1


    Statistical Tables for Key Questions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1


    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E-1

                            INTRODUCTION

PURPOSE

To describe and compare the experiences of functionally limited, comorbid and disabled Medicare
HMO beneficiaries with those of healthier beneficiaries.

BACKGROUND

The Medicare risk HMO program

Medicare beneficiaries may join a risk health maintenance organization (HMO) through the
Medicare program. When enrolling beneficiaries, HMOs may not deny or discourage enrollment
based on a beneficiary's health status except for end-stage renal disease (ESRD) or hospice care.
They must also adequately inform beneficiaries about lock-in to the HMO and appeal/grievance
procedures. Once enrolled, beneficiaries are usually required to use HMO physicians and
hospitals (lock-in) and to obtain prior approval from their primary care physicians for other than
primary care.1 The Health Care Financing Administration (HCFA) has oversight responsibility for
Medicare risk contracts with HMOs. Effective July 1997, HCFA's internal reorganization placed
many managed care functions under the new Center on Health Plan and Provider Operations.
Previously, the HCFA Office of Managed Care was the responsible agency. As of October 1997,
HCFA reported 307 risk-based HMO plans served 5,049,296 Medicare enrollees.2,3

Functionally limited, chronically ill and disabled beneficiaries

Several recent studies have focused attention on the experiences and outcomes of the less healthy
Medicare beneficiaries who join HMOs. Since the Medicare HMO program is growing
substantially and the population of beneficiaries over age 85 is growing it is anticipated that the
health care needs of HMO members will intensify. Because they use the health care system more
often and cost more to care for, the less healthy members have a more experienced view of their
health care system than healthy members and are often more vulnerable to cost saving strategies
employed in managed health care.4,5 A recent medical outcomes study found that patients with
chronic illnesses had worse outcomes in HMOs than in fee-for-service coverage, but such
outcome differences were not found for a healthier population.6 Another study of enrollment­
disenrollment patterns and utilization of hospital services found that beneficiaries who disenroll
from HMOs have higher inpatient admission rates than those who stayed in the fee-for-service
system7 suggesting that sicker beneficiaries are selectively disenrolling from HMOs. Given these
findings, an examination of sicker beneficiaries experiences with HMOs is warranted, and is the
focus of this report.




                                            )))))))))))
                                                 1
Prior Office of Inspector General studies

The Office of Inspector General (OIG) has conducted several studies of Medicare managed care.
In 1995 the OIG released two final reports based on 1993 survey data from 2,882 Medicare HMO
enrollees and recent disenrollees randomly sampled from 45 Medicare risk HMOs.8 While the
majority of enrollees and disenrollees reported access to medical care that maintained or improved
their health, the results also indicated some serious problems with enrollment procedures and
service access. Further, the reports suggested how HCFA could use information from
beneficiaries to guide its performance monitoring and assessments of HMOs.

In 1996 OEI initiated a follow-up study,"Beneficiary Perspectives of Medicare Risk HMOs 1996"
(OIG-OEI-06-95-00430), largely replicating the methodology of the 1993 survey for comparison
purposes. One of the more substantial findings of the overview report was that experiences and
perspectives of HMO enrollees and disenrollees who were functionally limited, chronically ill or
disabled differed significantly from those of healthier beneficiaries. This report provides a more
indepth look at these sub-populations.

METHODOLOGY*

Definition of access

Beyond referencing medical necessity and an actual or likely adverse effect on the beneficiary, the
law and regulations do not clearly delineate what full access to services through an HMO means.
To adequately cover access to services, we adapted a definition from literature that uses five
dimensions: availability, accessibility, accommodation, affordability, and acceptability.
Operationally, we divided access into five areas: appointments, including waiting time and
administrative processes for making them; restrictions on medical services; incidence and reasons
for out-of-plan care; behavior of primary HMO doctors and other HMO personnel towards
beneficiaries; and beneficiary awareness of appeal and grievance rights.

Sample selection

From HCFA's Group Health Plan (GHP) data base, we selected a two-stage random sample,
stratified at the second stage. At the first stage, we selected Medicare risk HMOs from those
under contract with HCFA as of May 1996. We first excluded those that did not meet our
parameters for length of time in the Medicare program or for number of enrollees and
disenrollees. From the remaining HMOs, we randomly selected 40. At the second stage, we
selected current enrollees and recent disenrollees from each sampled HMO. After excluding
enrollees and disenrollees who had not been members for at least 3 months, we randomly selected
51 enrollees and 51 disenrollees from each of the 40 HMOs. Finally, using HCFA's Enrollment
Data Base, we dropped beneficiaries who had died or who appeared as current enrollees, but had
actually disenrolled since the last update to the GHP file. This process resulted in 2,038 enrollees
and 2,027 disenrollees for a total of 4,065 beneficiaries.



*
    See Appendix A for the full text of the Methodology.

                                            )))))))))))
                                                 2
Scope and data collection

Since this study's primary focus is the Medicare beneficiaries' perceptions of their risk HMO
experiences, we only collected information from them. We surveyed both enrollees and
disenrollees to compare their responses, and thus, to gain greater insight into HMO issues. We
did not contact HMOs or their staffs, nor did we attempt to assess the quality or propriety of
medical care rendered by the HMOs to these beneficiaries. We initially mailed structured survey
forms to 4,065 beneficiaries in early August 1996. In mid-September 1996, we mailed a follow-
up letter and second survey form to non-respondents; we closed data collection in October 1996.

With the exception of four questions on overall ratings of their HMO experiences, we did not
specifically ask beneficiaries about their satisfaction with the HMOs. Instead we asked for more
concrete details on beneficiaries' perceptions and experiences, such as, how long were waits for
appointments, or how often, if ever, did a primary physician fail to take their health complaints
seriously. Both enrollees and disenrollees provided information on sample and demographic data,
enrollment experience, past and present health status and functional level, cost of HMO
membership, HMO environment, and available HMO services.

A total of 3,229 survey forms were returned. Of these, 3,003 were usable yielding an unweighted
return rate of 74 percent overall, 82 percent for enrollees (N=1665) and 66 percent for
disenrollees (N=1338).

Weighting and interpretation

We weighted the collected data to reflect a non-response bias, differences in enrollment size
among the sampled HMOs, and distribution of enrollees and disenrollees in the universe (97% vs.
3%) for the sample period. The results are generalizable only to the 132 HMOs that met our
sampling parameters.

Because of the imbalance between enrollees and disenrollees, we primarily analyzed the two
groups separately. Comparisons between sub-populations of enrollees and disenrollees form the
basis for all tables in this report. All tables show the weighted percentages with the weighted
number of respondents in parentheses. Additionally, we computed 95 percent confidence
intervals and statistical significance tests for key questions (see Appendix D ).




                                           )))))))))))
                                                3
Defining Medicare vulnerable sub-populations

We conducted a literature review of recent studies of Medicare beneficiaries which addressed less
healthy sub-populations. Several working definitions were identified in the literature. We used
definitions of vulnerable subgroups that were fairly consistent with those used in existing studies.
In our overview report, we used a broad category of chronically ill beneficiaries since other
studies had used this categorization. However, our more indepth analysis of vulnerable
feneficiaries for this report, as well as prior research efforts, led us to focus on beneficiaries
having multiple health problems as a more discriminating category for the chronically ill. 9
Therefore, we chose to use comorbidity as our definition of serious illness. For a more complete
discussion of the categorization scheme used across other studies, see Appendix A.

We analyzed three categories of vulnerable beneficiaries: the disabled, functionally limited and
comorbid individuals having multiple serious conditions. Disabled beneficiaries were shown on
the GHP as meeting the Medicare criteria for disability and were younger than 65. We classified
enrollees and disenrollees as functionally limited or comorbid based on their self reports of health
conditions and activities of daily living. Functionally limited beneficiaries reported at least one
limitation in the following activities of daily living: problems getting in or out of bed, bathing or
showering, using the toilet, or climbing one flight of stairs. Comorbid beneficiaries reported two
or more health conditions from a list including heart attack or heart condition, kidney failure,
stroke, cancer (excluding skin cancer), diabetes, and other serious conditions (See Appendix A).
The sub-populations of disabled and functionally limited beneficiaries are not the same, although
some overlap exists. Disabled enrollees and disenrollees comprise 12 percent and 24 percent,
respectively, of the functionally limited respondents.

The unweighted sample sizes for these vulnerable sub-groups resulting from these definitions are
as follows: Disabled Enrollees - 91, Disabled Disenrollees - 98, Functionally Limited Enrollees -
258, Functionally Limited Disenrollees - 216, Comorbid Enrollees - 244, Comorbid Disenrollees -
207.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President's Council on Integrity and Efficiency.




                                             )))))))))))
                                                  4
                                    FINDINGS

SUMMARY OF BENEFICIARIES' ASSESSMENTS

Overall, Medicare beneficiaries in risk HMOs gave favorable reports of their experiences and
access to care in 1996. Problem areas identified by the overall group were beneficiaries' lack of
awareness of their formal appeal and grievance rights, disenrollees receiving denials for
emergency or urgent care, and awareness of the need for, and rules applying to gynecological
care. However, we found that functionally limited and disabled beneficiaries experienced
significantly more problems in accessing specialists, and other Medicare-covered services, and in
receiving full explanations of their treatment options and having their health complaints taken
seriously.

In our further analysis of the experiences of vulnerable sub-populations in Medicare risk HMOs,
we found additional evidence of problems they encountered and differences in their perceptions of
HMO care as compared to the overall HMO beneficiary population. These included problems
with access to care, particularly referrals and specialized services, the perception that their
primary doctor did not take their complaints seriously and difficulty they experienced in obtaining
care. For this report, we expanded the set of questions examined to include the enrollment
process, their rating of care received by their primary doctor, and the impact of the care they
received on their health status.

ENROLLMENT PROCESS

We found that vulnerable beneficiaries' most frequently mentioned reasons for joining HMOs, as
for healthier beneficiaries, were to obtain more affordable health care, services not covered by
Medicare fee-for-service, and better quality care (See Table C-1).

We noted few differences among specific sub-groups concerning why they joined an HMO. We
found that disabled enrollees (70%) and disenrollees (58%) were much more likely than aged
enrollees(36%) and disenrollees (37%) to have joined their HMO in order obtain services not
covered by the fee-for-service plan. Additionally, comorbid disenrollees (40%) joined for this
reason more often than their reference group (28%). Disabled disenrollees joined seeking more
affordable health care (48%) less often than aged disenrollees (72%), which was also true for
comorbid disenrollees (60% compared to 72%). See Table C-1. Most beneficiaries knew at
enrollment that their primary HMO doctor must give them referrals for specialist services.

Disabled Beneficiaries And Functionally Limited And Comorbid Disenrollees Were More
Likely Than Less Impaired Groups To Have Been Inappropriately Asked About Their
Health Problems At Application.

Due to concerns stated by other researchers over whether less healthy beneficiaries are being
selectively excluded from HMO membership, we analyzed the experience of these vulnerable
groups regarding being asked about their health problems at application. We found that disabled
enrollees (22%) and disenrollees (25%) and disenrollees reporting comorbidities (22%) and
functional limitations (23%) did more often report being asked about their health status at the

                                            )))))))))))
                                                 5
time of HMO application. See Table C-2.

PERCEIVED HEALTH STATUS

Researchers have found self assessment of health status is strongly related to perceived health care
needs and utilization of services.10 Since health status has multiple dimensions, including the
nature of the diagnosis, the severity of the condition, and functional limitations caused by the
condition, the individual is able to take all of these dimensions into account in self-assessing their
health status. Because perceived health status is an important predictor of perceived health care
needs and service utilization, we examined the self-reported health status of each vulnerable
beneficiary group.

                Table 1: Beneficiaries' Perceived Health at Time of Survey by Sub-Population

                                                    Enrollees                       Disenrollees

   Medicare Aged/Disabled                      Aged          Disabled           Aged           Disabled

   Health at time of survey was:

   <   good to excellent                        71%            34%              66%               21%
                                            (1,319,887)      (27,377)         (27,750)           (594)
   <   fair                                     25%            42%              25%               48%
                                             (460,975)       (34,091)         (10,403)          (1,378)
   <   poor to very poor                         5%            24%               9%               32%
                                              (84,221)       (19,763)          (3,845)           (915)

   Functional Limits                         No Limits      1+ Limits         No Limits        1+ Limits

   Health at time of survey was:

   <   good to excellent                        77%             31%             74%              16%
                                            (1,197,149)      (104,547)        (25,054)          (1,355)
   <   fair                                     21%             48%             21%              50%
                                             (321,764)       (161,033)         (7,194)          (4,356)
   <   poor to very poor                         2%             21%              5%              34%
                                              (32,450)        (70,717)         (1,645)          (2,972)

   Comorbidity                              <2 Illnesses   2+ Illnesses     <2 Illnesses   2+ Illnesses

   Health at time of survey was:

   <   good to excellent                        76%             40%             71%              19%
                                            (1,157,508)      (136,330)        (25,468)          (1,300)
   <   fair                                     22%             43%             23%              45%
                                             (332,433)       (146,675)         (8,099)          (3,105)
   <   poor to very poor                         3%             17%              6%              36%
                                              (41,655)        (59,588)         (2,073)          (2,516)




                                               )))))))))))
                                                    6
As Expected, Vulnerable Beneficiaries Assessed Their Health Status As Much Poorer Than
Other Beneficiaries.

We found significant differences in the proportion of all vulnerable beneficiaries reporting poor to
very poor health status compared to their reference groups (See Table 1). Disabled and
functionally limited beneficiaries reported the highest proportions of poor health status. Disabled
enrollees (24%) and disenrollees (32%) perceived their health status as poor or very poor more
often than aged enrollees and disenrollees (9%). Comorbid enrollees (17%) and disenrollees
(36%) more often reported poor to very poor health compared to 3 percent and 6 percent
respectively, of their reference groups.

ACCESS TO HEALTH SERVICES

Several health economists and health services researchers have expressed concern regarding the
perverse payment incentives which exist in the current Medicare HMO capitation methodology
which is not adjusted for health status. They note that plans which develop a reputation for
quality care to the sickest patients will attract a disproportionate share of such enrollees without
any additional compensation for their more expensive care. This can lead to plan failure or
incentives to limit access and treatment for specific subgroups.11,12,13 Due to these concerns, we
focused much of our analysis of vulnerable beneficaries in Medicare risk HMOs on their access to
health services.

While Able To Obtain Timely Primary Physician Appointments When They Were Very Ill,
Vulnerable Beneficiaries Experienced More Service Access Problems Than Healthier
Beneficiaries.

We first examined these beneficiaries' access to timely (1-2 days) primary physician appointments
when they were very sick. We found no differences between the vulnerable beneficiaries and
others in receiving timely doctor appointments. Most enrollees (92% to 97%) were able to obtain
appointments within 1 to 2 days when very sick. Similarly, most disenrollees (84% to 87%)
obtained timely appointments when very sick. See Tables 2.1 to 2.3.

Functionally limited beneficiaries, comorbid enrollees and disabled disenrollees said their
physician failed to give them Medicare-covered services more often than healthier
beneficiaries.

Of disabled disenrollees, 27 percent stated that their physicians failed to give them Medicare-
covered services, whereas only 11 percent of aged disenrollees made this assertion. Among
functionally limited beneficiaries, 8 percent of enrollees and 20 percent of disenrollees reported
this failure to obtain services compared to 2 percent of enrollees and 11 percent of disenrollees in
the less impaired group. Comorbid enrollees were also more likely than their healthier
counterparts to report their physician failed to give them Medicare-covered services (9%
compared to 2%).




                                            )))))))))))
                                                 7
Comorbid beneficiaries and disabled disenrollees experienced more problems in obtaining
referrals to specialists than healthier beneficiaries.

Thirty-six percent of disabled disenrollees experienced failure of their physicians' to refer them to
a specialist when the beneficiaries felt this was needed, which is significantly higher than the 13
percent of aged disenrollees making this claim (See Table 2.1).


                    Table 2.1: Service Access by Medicare Aged/Disabled Sub-Population

                                                      Enrollees                   Disenrollees

   Service Access                                Aged         Disabled         Aged       Disabled

   Received appointment with physician w/in       96%           95%             85%         87%
   1-2 days when very sick.                     (982,645)     (63,365)        (23,952)     (2,330)

   Physician failed to give needed Medicare-       3%           4%             11%           27%
   covered services.                            (62,609)      (3,233)         (5,265)       (970)

   Experienced delays in receiving non-           12%           23%            23%          34%
   routine services in past 6 months.           (159,867)     (15,463)        (8,222)      (1,101)

   Physician failed to admit beneficiary to        1%           4%              4%           19%
   hospital when needed.                        (12,747)      (2,061)          (829)        (377)
   Physician failed to refer beneficiary to a      4%           16%            13%           36%
   specialist when needed.                      (64,581)      (12,935)        (4,586)       (918)
   Had sought out-of-plan care.                    5%           15%            10%           14%
                                                (100,662)     (12,505)        (4,612)       (531)


Table 2.3 indicates that beneficiaries with comorbidity experienced this problem with specialty
referrals as well. Eight percent of enrollees and 21 percent of disenrollees reported a problem
with specialist referrals, contrasted with healthier enrollees (4%) and disenrollees (13%).




                                                )))))))))))
                                                     8
                       Table 2.2: Service Access by Functionally Limited Sub-Population

                                                      Enrollees                        Disenrollees

   Service Access                               No Limits       1+ Limits      No Limits      1+ Limits

   Received appointment with physician w/in        97%              92%           84%            87%
   1-2 days when very sick.                      (768,985)        (233,233)     (17,717)        (7,320)

   Physician failed to give needed Medicare-        2%               8%           11%            20%
   covered services.                             (35,857)         (26,111)       (4,136)        (2,047)

   Experienced delays in receiving non-             11%             16%           22%            30%
   routine services in past 6 months.            (123,089)        (41,497)       (6,495)        (2,589)

   Physician failed to admit beneficiary to         1%               3%              4%           8%
   hospital when needed.                          (8,241)          (6,110)          (660)        (522)
   Physician failed to refer beneficiary to a       5%               6%           12%            25%
   specialist when needed.                       (58,280)         (11,235)       (3,313)        (2,072)
   Had sought out-of-plan care.                     4%              13%           10%            13%
                                                 (63,105)         (46,648)       (3,751)        (1,327)


Comorbid disenrollees encountered more delays in obtaining non-routine services (e.g.
physical therapy, diagnostic tests) than healthier disenrollees.

We asked beneficiaries about any delays in receiving HMO approvals for non-routine services,
such as physical therapy or diagnostic tests in the 6 months prior to the survey. Of disenrollees
with comorbidities, 36 percent had experienced such delays, although only 21 percent of healthier
disenrollees reported this (See Table 2.3).


                             Table 2.3: Service Access by Comorbid Sub-Population

                                                            Enrollees                  Disenrollees

   Service Access                               <2 Illnesses    2+ Illnesses   <2 Illnesses   2+ Illnesses

   Received appointment with physician w/in       97%             94%             85%            87%
   1-2 days when very sick.                     (742,513)       (265,966)       (18,893)        (6,482)

   Physician failed to give needed Medicare-        2%               9%           12%            12%
   covered services.                             (35,127)         (29,629)       (4,954)        (1,086)

   Experienced delays in receiving non-           13%               12%           21%            36%
   routine services in past 6 months.           (134,787)         (33,394)       (6,450)        (2,465)

   Physician failed to admit beneficiary to         1%              4%               4%           13%
   hospital when needed.                          (5,665)         (8,346)           (455)        (712)
   Physician failed to refer beneficiary to a       4%               8%           13%            21%
   specialist when needed.                       (51,794)         (25,434)       (3,769)        (1,510)
   Had sought out-of-plan care.                     6%               7%            9%            14%
                                                 (84,684)         (23,663)       (3,628)        (1,170)


Beneficiaries with comorbidities and disabled disenrollees more often reported their primary

                                                 )))))))))))
                                                      9
physician failed to admit them to the hospital when they felt this was needed.

As shown in Table 2.,3 comorbid diserollees (13%) and enrollees (4%) stated that their physician
failed to admit them to the hospital when they felt this was needed more often than healthier
beneficiaries. This problem was also experienced by disabled disenrollees (19%), whereas
significantly smaller proportions of their reference groups noted this problem (See Table 2.1).

PRIMARY HMO PHYSICIAN CARE

We also analyzed a set of questions asking about beneficiaries' perceptions of the care received
from their primary physicians. Given the "gatekeeper" role of the primary physician in an HMO,
their relationship with beneficiaries is important to how HMO members perceive the quality of
care they receive.

The perceptions of comorbid beneficiaries were very similar to those of healthier beneficiaries.
See Table 3.

Functionally Limited Beneficiaries And Disabled Disenrollees Were More Critical Of The
Care Received From Their Primary Physicians.

Disabled and functionally limited disenrollees and enrollees more often said their primary
care physician did not take their health complaints seriously.

As seen in Table 3, a substantial proportion of disabled disenrollees (39%) reported their primary
physician did not take their complaints seriously, as contrasted with only 17 percent of aged
disenrollees. Our overview report discussed examples of provider behavior which generated these
concerns, such as not listening to the beneficiary, impatience, and not letting beneficiaries fully
explain their concerns.14 Among disenrollees, 39 percent of disabled and 24 percent of the
functionally limited felt their primary care physician did not take their complaints seriously. To a
lesser extent, disabled and functionally limited enrollees also shared this view.

Disabled and functionally limited disenrollees were also less likely to believe their physician
explained all their treatment options than less impaired disenrollees.

Explaining treatment options is another important aspect of the physician patient relationship.
Only 61 percent of disabled disenrollees believed their primary physician explained all their
treatment options, whereas 78 percent of aged disenrollees felt this was true. Likewise, only 68
percent of the functionally limited disenrollees were comfortable that all treatment options were
explained by their physician compared to 79 percent of the less impaired disenrollees. We found
no significant differences in comparing enrollees from these sub-populations with their reference
groups, nor between comorbid beneficiaries and their healthier counterparts.




                                            )))))))))))
                                                10
       Table 3: Primary Physician Care by Medicare Aged/Disabled and Functionally Limited Sub-
   Populations

                                                      Enrollees                  Disenrollees

   Primary Physician Care                        Aged        Disabled        Aged        Disabled

   Primary physician did not take health          7%           13%            17%          39%
   complaints seriously.                       (127,608)     (11,106)        (7,943)      (1,441)

   Primary physician explained treatment           89%         92%            78%          61%
   options                                     (1,399,300)   (73,799)       (31,090)      (2,176)

   Cost most important to primary physician.      9%            5%            20%           24%
                                               (138,033)      (4,030)        (7,135)       (516)
   Believed care given by PCP was:

   <   excellent
                                                 48%           38%             36%          33%
   <   good                                    (919,845      (34,275)       (17,545)      (1,221)
                                                 43%           45%            37%           24%
   <   fair                                    (821,073)     (40,620)       (17,733)       (882)
                                                  7%           14%            17%           29%
                                               (131,841)     (12,959)        (8,085)      (1,072)

   Primary Physician Care                      No Limits     1+ Limits     No Limits    1+ Limits

   Primary physician did not take health           5%          16%            17%          24%
   complaints seriously.                        (72,319)     (58,381)        (6,444)      (2,418)

   Primary physician explained treatment           91%         85%            79%          68%
   options                                     (1,143,058)   (280,598)      (25,390)      (6,742)

   Cost most important to primary physician.      8%            9%            18%          27%
                                               (114,317)     (25,475)        (5,631)      (1,795)
   Believed care given by PCP was:

   <   excellent
                                                  51%           34%            38%          29%
   <   good                                    (804,503)     (117,306)      (14,759)      (3,201)
                                                  41%           50%           37%          29%
   <   fair                                    (654,904)     (172,946)      (14,368)      (3,191)
                                                   6%           12%           15%          30%
                                               (101,383)      (41,298)       (5,664)      (3,264)



We also analyzed the proportion of vulnerable beneficiaries who believed that cost was the most
important consideration of their primary physician and generally found no difference between the
vulnerable beneficiaries and healthier groups, except that 27 percent of functionally limited
disenrollees believed this to be true versus 18 percent of less impaired disenrollees.




                                               )))))))))))
                                                   11
Fewer functionally limited beneficiaries and disabled enrollees rated the care they received
from their primary physician as excellent than their reference groups.

We asked beneficiaries to give a summary rating of the care received from their primary
physicians. Fewer disabled (38%) than aged (48%) enrollees rated this care as excellent.
Likewise, fewer functionally limited enrollees (34%) and disenrollees (29%) rated the care
provided by their primary physician as excellent than less impaired enrollees (51%) and
disenrollees (38%). We found no differences between comorbid enrollees and healthier enrollees.
However, comorbid (41%) disenrollees rated their care as excellent more often than those not so
impaired. See Table 3.

ASSESSING HMO OVERALL CARE

While Sizeable Proportions Of Vulnerable Enrollees Said Their Health Improved, About
One Fifth Of Vulnerable Disenrollees Said Care Provided By The HMO Caused Their
Health To Worsen.

Among vulnerable disenrollees, 23 percent of the comorbid, 20% of the functionally limited, and
18 percent of the disabled reported HMO care caused their health to worsen. However, on the
positive side, 34 percent of disabled, 44 percent of functionally limited, and 52 percent of
comorbid enrollees said their health improved under HMO care.

More Vulnerable Beneficiaries Said Obtaining Care Through Their HMO Was Hard Or
Very Hard.

Table 4 presents beneficiary assessments of the ease with which they obtained care through their
HMO. Significantly more disabled enrollees (24%) and disenrollees (37%) and functionally
limited enrollees (11%) and disenrollees (31%) said that obtaining care was hard or very hard
compared to aged and less impaired beneficiaries. This greater difficulty in obtaining care was
also a concern of comorbid disenrollees.




                                           )))))))))))
                                               12
                          Table 4: Beneficiaries' Perceptions of HMO Care
               by Medicare Status, Functionally Limited and Comorbid Sub-Populations

                                                 Enrollees                    Disenrollees

Medicare Aged/Disabled                     Aged          Disabled         Aged          Disabled

Ease of obtaining care was:

<   easy or very easy                      68%               45%           52%            45%
<   neither easy nor hard                  27%               31%           29%            18%
<   hard or very hard                       5%               24%           18%            37%

HMO care caused health to:

<   improve                                44%               34%           30%            17%
<   stay the same                          54%               62%           59%            66%
<   worsen                                  3%                4%           11%            18%

Functional Limits                       No Limits      1+ Limits        No Limits       1+ Limits

Ease of obtaining care was:

<   easy or very easy                      70%               55%           55%            40%
<   neither easy not hard                  26%               35%           28%            29%
<   hard or very hard                       5%               11%           16%            31%

HMO care caused health to:

<   improve                                43%               44%           34%            17%
<   stay the same                          56%               48%           58%            63%
<   worsen                                  1%                9%            9%            20%

Comorbid                               <2 Illnesses   2+ Illnesses     <2 Illnesses    2+ Illnesses

Ease of obtaining care was:

<   easy or very easy                      67%               66%           53%            47%
<   neither easy nor hard                  28%               27%           28%            28%
<   hard or very hard                       5%                7%           18%            25%

HMO care caused health to:

<   improve                                41%               52%           28%            37%
<   stay the same                          58%               41%           63%            40%
<   worsen                                  1%                7%            9%            23%




                                           )))))))))))
                                               13

                      RECOMMENDATIONS

As the agency responsible for the growing Medicare risk HMO program, HCFA must exercise

leadership in monitoring the performance of HMOs and in assuring full access

to services for all Medicare HMO beneficiaries. Using 1996 data, we identified areas of the

Medicare risk HMO program that were working well for vulnerable beneficiaries or that

apparently needed improvement. Based on this work we also suggest techniques HCFA could

use to strengthen the consumer protections in its contractual requirements with HMOs to address

several problems identified by these vulnerable sub-populations. We further suggest factors for

HCFA to consider in developing the capitation rate risk adjusters required by the Balanced

Budget Act of 1997.


We recommend that HCFA take appropriate actions to address the problems of vulnerable

beneficiaries. We suggest HCFA consider the following options.


In developing and refining the health status capitation rate risk adjusters required by the
Balanced Budget Act of 1997, HCFA should consider the following:

C	
C    Risk adjusters should be sufficiently specific to address the severity of illness or
     functional impairments which contribute to the health service needs of beneficiaries.

C	
C    Large scale, multi-plan studies should be conducted concurrently with implementation
     of the risk adjustment methodology to test the adequacy of adjusters and measure plan
     and beneficiary behavioral responses.

C	
C    During the early implementation stage, the capitation methodology could include
     adjustments based upon actual cost experience.

Health economists have, over the past several years, raised concerns about the financial incentives
inherent in a capitation payment methodology which does not adequately adjust for the health
risks of a diverse Medicare population. Specifically, they predict that managed care plans have
incentives not to enroll sicker or disabled beneficiaries and that access problems will emerge for
sicker patients in these plans.15 Our analysis of beneficiary survey responses adds to a growing
number of studies which have shown evidence of enrollment and health access problems of these
vulnerable groups.16 These health economists have described risk adjustment methodologies as
the appropriate payment approach for addressing such problematic incentives.

The findings of this report and a review of recent research suggest that multiple dimensions of
health status need to be incorporated in a health status capitation rate methodology. Broad
categories of health status or diagnoses are not likely to capture the range of variation in costs and
health care needs of sicker and disabled populations. The Balanced Budget Act of 1997 requires
HCFA to submit a report by March, 1999 on a method of risk adjustment for captation rates paid
to Medicare HMOs, and to implement a risk adjustment methodology by January 1, 2000.
However, the Act does not specify the methodology to be used. Health economists, over the past
several years, have developed and conducted analyses of methodologies to serve this purpose. 17 18
These studies have noted the importance of functional limitations and comorbidity in developing

                                             )))))))))))
                                                 14
appropriate risk adjusters.

However, both plan and beneficiary behavioral responses to the new incentives created by a risk
adjustment methodology could vary from theoretical predictions. Thus, it is important for HCFA
to conduct studies of the actual behavior of these actors concurrent with implementation of the
risk adjustment methodology. A blend of prospective risk adjusters, coupled with actual cost
experience, as proposed by Newhouse et. al.,19 might help to correct for initial variance from the
expected effects of the new incentive structure of capitation risk adjustment as the methodology is
being refined.

Service access problems encountered by functionally limited, comorbid and disabled
beneficiaries should be identified and carefully monitored to assure optimal access to
needed health care services by these vulnerable groups.

Both the 1993 and 1996 HMO beneficiary surveys identified service access problems for these
vulnerable populations. HMOs and HCFA will be conducting disenrollee surveys and the
Consumer Assessment of Health Plans Survey (CAHPS) to assess beneficiary experience and
satisfaction with their HMOs. We believe these surveys should identify the health conditions and
functional limitations of beneficiaries, and analyze the responses of these vulnerable populations,
due to our findings on the problems they have experienced. These analyses could provide an
important beneficiary protection as the altered incentives of a risk adjusted capitated methodology
come into play.

HMOs may be encouraged, or required by contract, to improve access to needed specialty
care, by designating medical specialists as primary care providers for individuals with
severe, disabling or degenerative conditions. Alternatively, HMOs could be encouraged or
required to provide standing referrals to specialists for beneficiaries determined by the
HMO to have conditions that require on-going specialty care.

Problems with access and acceptability of care in HMOs for privately insured persons are
currently being addressed by several state governments through legislation and regulation of the
managed care industry. New York and New Jersey have proposed regulations requiring HMOs
to designate medical specialists as primary care providers for these vulnerable beneficiaries. New
York has also proposed regulations which would allow enrollees to receive a standing referral to a
specialist for conditions requiring on-going specialty care.20

At the Federal level, a "Patients Bill of Rights" is being considered. For Medicare beneficiaries
HMO contractual requirements afford a mechanism for protecting vulnerable plan members. The
problems in obtaining specialist referrals reported by vulnerable beneficiaries indicate such
protection is warranted.




                                            )))))))))))
                                                15
To address problems experienced by vulnerable beneficiaries in obtaining needed
Medicare-covered services and specialty care, HCFA could, through contractual
requirements, require that referral and utilization criteria be available on request to
providers and to beneficiaries for use in accessing care and appealing any denials of service.

In our overview report we found that beneficiaries are experiencing problems in understanding
their appeal rights. In this report we found that vulnerable beneficiaries are experiencing more
problems than healthier beneficiaries in accessing needed health services, particularly specialty
services. We suggest that HCFA strengthen its requirements of HMOs to assure beneficiaries
have appropriate information regarding the basis upon which decisions regarding their access to
care are made.

Denial of service letters, written in clear language, must be provided by HMOs to plan enrollees
when services are denied. These letters provide an appropriate mechanism to provide the
enrollees and their providers with the criteria which were used to deny services. The HCFA
HMO/CMP Manual requires specificity in reasons for denials to be stated in denial determination
letters. However, criteria used by the plan in their determinations are not explicitly required.21
This could also aid these enrollees and their providers in pursuing expedited appeals, which are
required in urgent situations. New York has proposed regulations requiring such disclosures.22
Monitoring state experiences with such regulations could assist HCFA in deciding whether to
include such requirements in its Medicare HMO contracts.




                                            )))))))))))
                                                16
                       AGENCY COMMENTS

We received comments on the report from the Health Care Financing Administration (HCFA) and
the Assistant Secretary for Planning and Evaluation (ASPE). The full text of their comments is in
Appendix E.

Health Care Financing Administration

Of the report's six recommendations, HCFA fully concurred with four: 1) identifying and
monitoring service access problems encountered by vulnerable beneficiaries; 2) improving these
beneficiaries' access to needed specialty care; 3) improving the processes for informing providers
and beneficiaries' of referral and utilization criteria; and 4) testing the adequacy of risk adjusters,
and measuring plan and beneficiary behavioral responses.

We also suggested that HCFA consider using health status adjusters to address severity of illness
and functional impairments, as well as a blend of prospective adjusters and retrospective
adjustments based upon actual cost in developing capitation rates. HCFA seriously considered
these options and partially concurred by accepting their intent while raising substantive concerns
about their feasibility.

HCFA also noted that it is developing data and methods for risk adjustment based on severity of
illness. By the year 2000, it will most likely implement a risk adjustment system that uses
inpatient diagnoses to assign relative predicted risk scores to managed care enrollees. HCFA
anticipates moving to a more comprehensive risk adjustment model in later years. HCFA does
not foresee, however, implementing risk adjustment based on functional limitations as it would
require an additional expense of another data collection, is difficult to do accurately, and is of
questionable value to them.

We also suggested that HCFA consider a partial capitation approach that blends prospective and
retrospective adjustments. HCFA agrees that such an approach "may help mitigate against the
possible incentives under full capitation to restrict the use of services." However, HCFA believes
that this approach is not generally consistent with the prospective payment rate required by the
Balanced Budget Act of 1997, would be difficult to operationalize based on their experience with
demonstration projects, and again, would require data they do not have.

HCFA also offered several technical comments on the report's title, the sufficiency of information
about the sample sizes of the vulnerable subgroups, the connection between the report's analyses
and our recommendations for risk adjustment, and the ability of some of these beneficiaries to be
referred to appropriate specialty centers or clinics at least for diagnosis or case management. We
modified the report title, added clarifications that specify the unweighted sample sizes, the
smallest of which was 91 beneficiaries, and cited the literature that demonstrates the connection
between access to care issues and risk adjustment. Acquiring sufficiently specific health data to
identify beneficiaries with rare conditions or to analyze their referrals to specialty centers or clinics
was beyond the intended scope of our study.

Assistant Secretary for Planning and Evaluation

                                              )))))))))))
                                                  17
ASPE concurred with the recommendations and offered comments on sample composition and
size, the statistical significance of our findings, and the need for further study of the disabled
population. ASPE noted incorrectly that our sample included only elderly Medicare beneficiaries
and not disabled Medicare beneficiaries. In fact, as the methodology mentions, we did sample
beneficiaries who met the Medicare criteria for disability and were younger than age 65. Of the
3,003 respondents to our survey, 189 were Medicare disabled beneficiaries. Appendix D shows
the tests of statistical significance between the disabled and aged Medicare respondents, as well as
those for the other vulnerable group comparisons. We acknowledge ASPE's interest in further
study of the disabled population.




                                            )))))))))))
                                                18
                                    ENDNOTES

1.	    This excludes the effect of the point-of-service option which was relatively new for the
       Medicare program at the time we completed the data collection phase of our study.

2.	    "Medicare Managed Care Plans," October 1997, a monthly report prepared by Office of
       Managed Care, HCFA.

3.	    In recent years, HCFA has begun to broaden the range of service delivery options within
       the Medicare managed care program. In October 1995, HCFA issued guidelines to
       HMOs on offering a point-of-service (POS) option to Medicare enrollees. The POS
       benefit increases flexibility for Medicare HMO enrollees by allowing them to seek care
       outside the HMO's provider network, typically with higher cost-sharing, i.e. the HMO will
       provide partial reimbursement for out-of-network services. In January 1997, HCFA
       launched the Medicare Choices demonstration project designed to provide beneficiaries a
       wider variety of managed care plans and to extend managed care options to rural areas.
       The demonstration plans include four provider sponsored networks, a preferred provider
       organization and a "triple option" hybrid that lets members see gatekeeper physicians,
       other plan providers without a gatekeeper referral, or providers outside the plan.

4.	    Paul Fishman et al., "Chronic Care Costs in Managed Care," Health Affairs, May/June
       1997, pp. 239-247.

5.	    John E. Ware Jr., et al., "Differences in 4-Year Health Outcomes for Elderly and Poor,
       Chronically Ill Patients Treated in HMO and Fee-For-Service Systems," Journal of the
       American Medical Association, 1996:276:13:1039-1047.

6.     Ware et al., October 1996.

7.	    Robert O. Morgan et al., "The Medicare-HMO Revolving Door - The Healthy Go In and
       The Sick Go Out", The New England Journal of Medicine (July 17, 1997),
       172-175.

8.	    "Beneficiary Perspectives of Medicare Risk HMOs" (OEI-06-91-00730),
       "Medicare Risk HMO Performance Indicators" (OEI-06-91-00734)

9. Physician Payment Review Commission 1997 Annual Report to Congress, p. 108.

10.	   Hornbrook and Goodman present a study of the linkage of health status, functional
       limitations and health service utilization in the context of developing appropriate capitation
       risk adjusters. They reported that functional limitations, self-reported diseases and
       perceived health status to be strongly associated with service utilization and perceived
       health care needs. Consequently, they stress the importance of capturing multiple
       dimensions of health status, perception of health status, functional limitations as well as
       specific conditions in developing appropriate predictors of health service utilization.




                                            )))))))))))
                                                19
       (Mark C. Hornbrook and Michael J. Goodman, "Chronic Disease, Functional Health
       Status and Demographics: A Multi-Dimensional Approach to Risk Adjustment," Health
       Services Research, 31:3, August 1996, pp. 283-305.

11.	   Robert H. Miller and Harold S. Luft, "Does Managed Care Lead to Better or Worse
       Quality of Care," Health Affairs, September/October 1997, pp. 7-25.

12.    Hornbrook and Goodman, 1996.

13.    Morgan et. al., 1997.

14.    "Beneficiary Perspectives of Medicare Risk HMOs 1996," OEI-06-95-00430, p.18.

15.	   Joseph Newhouse et. al. succinctly presents the logical connection between lack of
       risk adjustment and plan attempts to enroll healthier patients and increased access
       problems for the chronically ill. His basic argument is that, without risk
       adjustment, plans that enroll sicker patients and provide them good access to
       services weaken their financial position to compete with other plans in a market
       area. "Risk Adjustment and Medicare: Taking a Closer Look," Health Affairs,
       September/October 1997, pp. 26-43.

       For additional descriptions of this logic see Physician Payment Review
       Commission 1997 Annual Report to Congress, Chapter 5 and Mark C. Hornbrook
       and Michael J. Goodman, "Chronic Disease, Functional Health Status and
       Demographics: A Multi-Dimensional Approach to Risk Adjustment," Health
       Services Research, 31:3, August 1996, pp. 284-285.

16.	   John E. Ware, et al., "Differences in 4-Year Health Outcomes for Elderly and
       Poor, Chronically Ill Patient Treated in HMO and Fee-For-Service Systems",
       Journal of the American Medical Association, 1996:276:13:1039-1047.

       Robert O. Morgan et al., "The Medicare-HMO Revolving Door - The Healthy Go
       In and The Sick Go Out", The New England Journal of Medicine (July 17, 1997),
       172-175.

       Marsha Gold et al., "Disabled Medicare Beneficiaries In HMOs," Health Affairs,
       September/October 1997, 155-158.

17.	   Joseph Newhouse et. al. have analyzed the risk adjustment methodologies which have
       been developed and conclude that the work on diagnostic cost groups and that on
       hierarchial coexisting conditions offer the most promise. (Newhouse et. al., 1997, pp. 26-
       43).

       Hornbrook and Goodman have also addressed the multi-dimensional nature of health
       status adjustment and suggest that functional limitations compound specific diagnostic
       categories in determining the amount and type of health service needs and, consequently,
       need to be accounted for in risk adjustment methodologies. (Hornbrook and Goodman,


                                           )))))))))))
                                               20
       1996).

18.    Physician Payment Review Commission 1997 Annual Report to Congress.

19.    Newhouse et. al., September/October 1997.

20.	   "HMO Consumers at Risk: States to the Rescue," Washington: Families USA, July 1996
       (http://epn.org/families/farisk.html).

21.    HCFA HMO/CMP Manual, Revision 6, section 2403.4.

22.    "HMO Consumers at Risk: States to the Rescue," 1996.




                                        )))))))))))
                                            21
                            BIBLIOGRAPHY

Adler, Gerald S., and M. Phil, "Medicare Beneficiaries Rate Their Medical Care: New Data From
the MCBS," Health Care Financing Review, Summer 1995, 16:4:175-187.

Annas, George J., "Legal Issues in Medicine: Patients' Rights in Managed Care -- Exit, Voice, and
Choice," The New England Journal of Medicine, July 17, 1997, 337:3:210-215.

Beebe, James, "An outlier pool for Medicare HMO payments," Health Care Financing Review,
Fall 1992, 14:1:59-63.

Bergeron, Jeanette, Randall S. Brown, and Jerrold Hill, final "First Annual Report: The
Evaluation of the TEFRA HMO/CMP Program," June 1990, Mathematica Policy Research, under
Health Care Financing Administration contract # 500-88-0006.

Brown, Randall S., Dolores Clement, Jerrold Hill, Sheldon Retchin, and Jeanette Bergeron, "Do
Health Maintenance Organizations Work for Medicare?" Health Care Financing Review, Fall
1993, 15:1:7-23.

Brown, Randall S., Kathryn Langwell, Katherine Berman, Ann Ciemenecki, Lyle Nelson, Alisa
Schreier, and Anthony Tucker, "Enrollment and Disenrollment in Medicare Competition
Demonstration Plans: A Descriptive Analysis," September 15, 1986, Mathematica Policy
Research, under Health Care Financing Adminstration contract # 500-83-0047.

Cleary, Paul D. and Barbara J. McNeil, "Patient Satisfaction as an Indicator of Quality Care,"
Inquiry, Spring 1988, 25:25-36.

Clements, Dolores G., Sheldon Retchin, Randall S. Brown, Meribeth H. Stegall, "Access and
Outcomes of Elderly Patients Enrolled in Managed Care," Journal of the American Medical
Association, May 18, 1994, 271:19:1487-92.

Consumer Reports, "Health Care in Crisis: Are HMOs The Answer?" August 1992, pp. 519-529.

Dallek, Geraldine, Aileen Harper, Carol Jimenez, Christina Nunez Daw, "Medicare Risk-Contract
HMOs in California: A Study of Marketing, Quality, and Due Process Rights," Medicare
Advocacy Project, Inc., January, 1993.

Davies, Allyson Ross, John E. Ware, Jr., Robert H. Brook, Jane R. Peterson and Joseph P.
Newhouse, "Consumer Acceptance of Prepaid and Fee-for-Service Medical Care: Results from a
Randomized Controlled Trial," Health Services Research, August 1986, 21:3:429-451.

Docteur, Elizabeth R., David C.Colby, and Marsha Gold, "Shifting the Paradigm: Monitoring
Access in Medicare Managed Care," Health Care Financing Review, Summer 1996, 17:4:5-21.

Donabedian, Avedis, "The Quality of Care: How Can It Be Assessed?" Journal of the American
Medical Association, September 23/30, 1988, 260:12:1743-48.

                                           )))))))))))
                                               22
Edgman-Levitan, Susan and Paul D. Cleary, "What Information Do Consumers Want And Need?"
Health Affairs, Winter 1996, 15:4:42-56.

Families USA, "HMO Consumers at Risk: States to the Rescue," Washington, D.C., July 1996
(http://epn.org/families/farisk.html).

Fishman, Paul et al., "Chronic Care Costs in Managed Care," Health Affairs, May/June 1997, pp.
239-247.

Franks, Peter, Carolyn M. Clancy and Paul A. Nutting, "Sounding Board: Gatekeeping Revisited
-- Protecting Patients From Overtreatment," The New England Journal of Medicine, August 6,
1992, 327:6:424-29.

Freeborn, Donald, Clyde Pope, and Bentson McFarland, "Consistently High and Low Elderly
Users of Medical Care: Executive Summary," Center for Health Research, Kaiser Permanente,
Northwest Region, NCHSR Grant No. HS 05316-02, March, 1988.

Freudenheim, Milt, "Many Patients Unhappy With H.M.O.s," The New York Times, August 18,
1993.

Friedman, Emily, "Policy Perspectives: Money Isn't Everything - Nonfinancial Barriers to
Access," The Journal of the American Medical Association, May 18, 1994, 271:19:1535-1538.

Gold, Marsha et al., "Disabled Medicare Beneficiaries In HMOs," Health Affairs,
September/October 1997, pp. 151-152.

Griffith, Mary Jane, Nicholas Baloff, and Edward L. Spitznagel, "Utilization Patterns of Health
Maintenance Organization Disenrollees," Medical Care, September 1984, 22:9:827-833.

Hays, Ron D., "The Quality of Patients' Ratings -- Letters to the Editor," Health Affairs, Winter,
1988, pp. 174-75.

Healthy People 2000 - 1995-96 Review, National Center for Health Statistics, Hyattsville, MD:
Public Health Service: Department of Health and Human Services, 1996.

Hellinger, Fred J., "Selection Bias in Health Maintenance Organizations: Analysis of Recent
Evidence," Health Care Financing Review, Winter 1987, 9:2:55-63.

Hibbard, Judith H. and Jacquelyn J. Jewett, "Will Quality Report Cards Help Consumers?" Health
Affairs, May/June 1997, 16:3:218-228.

Hill, Jerrold W., and Randall S. Brown, "Biased Selection in the TEFRA HMO/CMP Program,"
Final Report of September 21, 1990, Mathematica Policy Research under Health Care Financing
Administration contract # 500-88-0006.

Hornbrook, Mark C. and Michael J. Goodman, "Chronic Disease, Functional Health Status and


                                            )))))))))))
                                                23
Demographics: A Multi-Dimensional Approach to Risk Adjustment," Health Services Research,
31:3, August 1996, pp. 283-305.

Lamphere, Jo Ann, Patricia Neumann, Kathryn Langwell, and Daniel Sherman, "The Surge in
Medicare Managed Care: An Update," Health Affairs, May/June 1997, 16:3:127-133.

Langwell, Kathryn M. and James P. Hadley, "National Evaluation of the Medicare Competition
Demonstrations - Summary Report," January 31, 1989, Mathematica Policy Research and the
David Williamson Institute for Health Studies, Medical College of Virginia, under Health Care
Financing Administration contract # 500-83-0047.

McArthur, John H., and Francis D. Moore, "The Two Cultures and the Health Care Revolution:
Commerce and Professionalism in Medical Care," The Journal of the American Medical
Association, March 26, 1997, 277:12:985-989.

McMillan, James R., "Measuring Consumer Satisfaction to Improve Quality of Care," Health
Progress, March 1987, 68:2:54ff.

Medicare and Medicaid Guide, Commerce Clearing House,

--"ProPAC Calls for Combined Action to Contain Costs," Number 751, June 11,1993, pp. 4-6.

--"Disabled Americans Support Universal Health Care Coverage," Number 789, February 17,
1994, p. 5.

--"HCFA Stresses Commitment to Managed Care," Number 790, February 24,
1994, p. 10.

--"Medicare Managed Care Plans," October 1997.

--"Proposed HMO Regs Would Require Beneficiary Post-Contract Protections," Number 795,
March 31, 1994, p. 5.

--"Legislation Would Encourage Medicare Managed Care Plan Enrollment," Number 796, April
7, 1994, p. 9.

Miller, Robert H. and Harold S. Luft, "Does Managed Care Lead to Better or Worse Quality of
Care," Health Affairs, September/October 1997, pp. 7-25.

Morgan, Robert O., Beth A. Virnig, Carolee A. DeVito, and Nancy A. Persily, "The Medicare-
HMO Revolving Door -- The Healthy Go In And The Sick Go Out," The New England Journal
of Medicine, July 17, 1997, 337:3:169-175.

Nelson, Lyle, Randall Brown, Marsha Gold, Anne Ciemnecki, and Elizabeth Docteur, "Access to
Care in Medicare HMOs, 1996," Health Affairs, March/April 1997, 16:2:148-156.



                                          )))))))))))
                                              24
Newhouse, Joseph et al., "Risk Adjustment and Medicare: Taking a Closer Look," Health
Affairs, September/October 1997, pp. 26-43.

Office of Inspector General, Department of Health and Human Services

--"Marketing Practices of South Florida HMOs Serving Medicare Beneficiaries," OEI-04-91-
00630, November 1991.

--"Miami Area HMOs: Medicare Enrollment Patterns," OEI- 04-91-00640, November 1991.

--"HMO Customer Satisfaction Surveys," OEI-02-94-00360, March 1996.

--"Medicare HMO Appeal and Grievance Processes Overview," OEI-07-94-00280, December
1996.

--"Medicare HMO Appeal and Grievance Processes: Beneficiaries Understanding,"
OEI-07-94-00281, December 1996.

--"Medicare HMO Appeal and Grievance Processes: Survey of HMOs,"
OEI-07-94-00282, December 1996.

--"Medicare HMO Appeal and Grievance Processes: Review of Cases,"
OEI-07-94-00283, December 1996.

Pear, Robert, "Medicare To Stop Pushing Patients to Enter H.M.O.s," The New York Times,
December 27, 1993, p. A-1.

Pear, Robert, "Once in Forefront, H.M.O.'s Lose Their Luster in Health Debate," The New York
Times," August 23, 1994, p. A-10.

Penchansky, Roy, and J. William Thomas, "The Concept of Access: Definition and Relationship
to Consumer Satisfaction," Medical Care, February 1981, 12:2:127-140.

Physician Payment Review Commission, 1997 PPRC Annual Report to Congress, Washington,
D.C.

Podolsky, Doug and Joanne Silberner, "How Medicine Mistreats the Elderly," U.S. News and
World Report, January 18, 1993, pp. 72-79.

Porell, Frank W., Carolyn Cocotas, Peter J. Perales, Christopher P. Tompkins, and Mitchell
Glavin, "Factors Associated with Disenrollment from Medicare HMOs: Findings from a Survey of
Disenrollees," July 1992, Health Care Financing Administration and the Health Policy Research
Consortium of Brandeis University under Cooperative Agreement # 99-C99256/11-06.

Prasad, V. Kanti and Rajshekhar G. Javalgi, "Understanding Needs and Concerns of the Elderly
Regarding Medicare Health Maintenance Organizations," The Journal of Consumer Affairs,


                                         )))))))))))
                                             25
Summer, 1992, 26:1:47-67.

Richardson, David A., James Phillips, Dean Conley, Jr., "A Study of Coverage Denial Disputes
Between Medicare Beneficiaries and HMOs," Network Design Group, Inc., under HCFA
Cooperative Agreement No. 17-C-90070/2-01, September 1993.

Riley, Gerald, James Lubitz and Evelyne Rabey, "Enrollee Health Status under Medicare Risk
Contracts: An Analysis of Mortality Rates," Health Services Research, June 1991, 26:2:137-163.

Rossiter, Louis F., Kathryn Langwell, Thomas T.H. Wan, and Margaret Rivnyak, "Patient
Satisfaction Among Elderly Enrollees and Disenrollees in Medicare Health Maintenance
Organizations: Results from the National Medicare Competition Evaluation," Journal of the
American Medical Association, July 7, 1989, 262:1:57-63.

Rossiter, Louis, Thomas Wan, Kathryn Langwell, James Hadley, Anthony Tucker, Margaret
Rivnyak, Kenneth Sullivan, John Narcross, final analysis report, "National Medicare Competition
Evaluation: An Analysis of Patient Satisfaction for Enrollees and Disenrollees in Medicare Risk-
Based Plans," April 1988, Williamson Institute for Health Studies, Medical College of Virginia
and Mathematica Policy Research, under contract # 500-83-0047.

Sherrid, Pamela, "Cutting the cost of staying healthy," U.S. News and World Report, January 18,
1993, pp. 80-81.

Sullivan, Louis W., Secretary, Department of Health and Human Resources, final report
"Disenrollment Experience in the Medicare HMO and CMP Risk Program: 1985 to 1988," 1990,
based on Mathematica Policy Research study under contract # 500-88-0006.

Thomas, J. William, and Roy Penchansky, "Relating Satisfaction With Access to Utilization of
Services," Medical Care, June 1984, 22:6:553-568.

Tumlinson, Anne, et. al, "Choosing A Health Plan: What Information Will Consumers Use?"
Health Affairs, May/June 1997, 16:3:229-238.

United States General Accounting Office,

--"Managed Care: Explicit Gag Clauses Not Found in HMO Contracts, But Physician Concern
Remains," GAO/HEHS-97-175, August 1997.

--"Medicare: Issues Raised by Florida Health Maintenance Organization Demonstrations,"
Chapter 5, GAO/HRD-86-97, July 1986.

--"Medicare: Experience Shows Ways to Improve Oversight of Health Maintenance
Organizations," HRD-88-73, August 17, 1988, GAO report summary.

--"Medicare: Physician Incentive Payments by Prepaid Health Plans Could Lower Quality of
Care," GAO/HRD-89-29, December 1988.


                                           )))))))))))
                                               26
--"Medicare: PRO Review Does Not Assure Quality of Care Provided by Risk HMOs,"
GAO/HRD-91-48, March 1991.

--"Medicare: HCFA Needs to Take Stronger Actions Against HMOs Violating Federal
Standards," GAO/HRD-92-11, November 1991.

--"Medicare: Increased HMO Oversight Could Improve Quality and Access to Care,"
GAO/HEHS-95-155, August 1995.

--"Medicare: Federal Efforts to Enhance Patient Quality of Care," GAO/HEHS-96-20, April
1996.

--"Medicare: HCFA Should Release Data to Aid Consumers, Prompt Better HMO Performance,"
GAO/HEHS-97-23, October 1996.

--"Medicare: Fewer and Lower Cost Beneficiaries With Chronic Conditions Enroll in HMOs,"
GAO/HEHS-97-160, August 1997.

--"Medicare HMOs: Rapid Enrollment Growth Concentrated in Selected States," GAO/HEHS-
96-63, January 1996.

--"Medicare HMOs: Potential Effects of a Limited Enrollment Period Policy," GAO/HEHS-97-
50, February 1997.

United States Senate, Special Committee on Aging, Minority Staff Report, "Medicare and
HMOs: A First Look, with Disturbing Findings," April 7, 1987.

Ware, John E., Jr. and Ann H. Karmos, "Volume II - Perceived Health and Patient Role
Propensity," Development and Validation of Scales to Measure Patient Satisfaction with Health
Care Services, prepared for National Center for Health Services Research, Public Health Service,
1976. National Technical Information Service, Publication No. PB-288-331.

Ware, John E., Jr., W. Russell Wright, and Mary K. Snyder, "Volume IV - Key Health Concepts;
Methodological Appendix," Development and Validation of Scales to Measure Patient
Satisfaction with Health Care Services, prepared for National Center for Health Services
Research, Public Health Service, 1976. National Technical Information Service, Publication No.
PB-288-333.

Ware, John E. Jr., Martha S. Bayliss, William H. Rogers, Mark Kosinski, and Alvin R. Tarlov,
"Differences in 4-Year Health Outcomes for Elderly and Poor, Chronically Ill Patients Treated in
HMO and Fee-for-Service Systems," The Journal of the American Medical Association,
November 12, 1996, 276:13:1039-1047.




                                           )))))))))))
                                               27
                                  APPENDIX A

METHODOLOGY

Definition of access

Beyond referencing medical necessity and an actual or likely adverse effect on the beneficiary, the
law and regulations do not clearly delineate what full access to services through an HMO means.
In order to construct a survey instrument that adequately covered access to services, we adapted
a definition from literature.1,2 Basically, it uses five dimensions (availability, accessibility,
accommodation, affordability, and acceptability) that represent the degree of "fit" between the
patient and the health care system, e.g. existing services and the patient's medical needs, or price
of services and the patient's ability to pay. To tailor the survey for Medicare risk HMOs, we
expanded the idea of service availability to include the role of gatekeepers, primary physicians or
others associated with the HMO, in preventing or facilitating beneficiaries' receipt of covered
services. Operationally, we divided access into five areas: appointments, including waiting time
and administrative processes for making them; restrictions on medical services; incidence and
reasons for out-of-plan care; behavior of primary HMO doctors and other HMO personnel
towards beneficiaries; and beneficiary awareness of appeal and grievance rights.

Sample selection

From HCFA's Group Health Plan (GHP) data base, we selected a two-stage random sample,
stratified at the second stage.

At the first stage, we selected Medicare risk HMOs3 from those under contract with HCFA as of
May 1996. From a total of 208 risk HMOs, we excluded 76 because they: 1) had not been
enrolling Medicare beneficiaries for at least 6 months as of May 1996, 2) did not have at least 100
enrollees who had been members for 3 months or longer as of June 1996, or 3) did not have at
least 60 disenrollees from March 1996 through June 1996 who had been members for 3 months or
longer. We set these restrictions to avoid collecting data on HMOs and beneficiaries with little
Medicare HMO experience and to assure an adequate sampling universe per HMO. From the
remaining 132 HMOs, we randomly selected 40.

At the second stage, we selected Medicare beneficiaries from each sampled HMO. The universe
of beneficiaries for each sampled HMO contained two strata -- Medicare beneficiaries (enrollees)
who were enrolled as of June 1996 and Medicare beneficiaries (disenrollees) who had disenrolled
from March 1996 through June 1996 for reasons other than death. From each sampled HMO,
after excluding enrollees and disenrollees who had not been members for at least 3 months, we
randomly selected 51 enrollees and 51 disenrollees. While we could have selected a proportional
sample of beneficiaries, we chose not to because of a planned but separate analysis of the same
data at the HMO level. Instead, for this report, we weighted the beneficiary data as described
below. Finally, using HCFA's Enrollment Data Base, we dropped beneficiaries who had died or
who appeared as current enrollees, but had actually disenrolled since the last update to the GHP
file. This process resulted in 2,038 enrollees and 2,027 disenrollees for a total of 4,065
beneficiaries.

                                            )))))))))))
                                               A-1
Scope and data collection

Since this study's primary focus is the Medicare beneficiaries' perceptions of their risk HMO
experiences, we only collected information from them. We surveyed both enrollees and
disenrollees to compare their responses, and thus, to gain greater insight into HMO issues. We
did not contact HMOs or their staffs, nor did we attempt to assess the quality or propriety of
medical care rendered by the HMOs to these beneficiaries. We initially mailed structured survey
forms to 4,065 beneficiaries in early August 1996. In mid-September 1996, we mailed a follow-
up letter and second survey form to non-respondents; we closed data collection in October 1996.

With the exception of four questions on overall ratings of their HMO experiences, we did not
directly and specifically ask beneficiaries about their satisfaction with the HMOs. Instead we
asked for more concrete details on beneficiaries' perceptions and experiences, such as, how long
were waits for appointments, or how often, if ever, did a primary physician fail to take health
complaints seriously. Both enrollees and disenrollees provided information on sample and
demographic data, enrollment experience, past health status and functional level, cost of HMO
membership, HMO environment, and available HMO services. Additionally, enrollees were asked
about current health status and future plans for HMO membership while disenrollees were asked
about health status at disenrollment and reasons for disenrollment.

A total of 3,229 survey forms were returned. Of these, 3,003 were usable4 yielding an
unweighted return rate of 74 percent overall, 82 percent for enrollees (N=1665) and 66 percent
for disenrollees (N=1338).

Weighting and interpretation

We weighted the collected data to reflect a non-response bias, differences in enrollment size
among the sampled HMOs, and distribution of enrollees and disenrollees in the universe. To
determine non-response bias, we tested unweighted data for differences of means and proportions
to discern significant differences between respondents and non-respondents by four demographic
characteristics -- age, race, sex and number of months enrolled in the sampled HMO. Since
significant differences did exist, we conservatively weighted the sample to approximate the
response rate per stratum per sampled HMO.5 The weighted data also approximates the relative
Medicare enrollment sizes of the sampled HMOs and the disproportionate distribution of enrollees
and disenrollees in the universe (97% vs. 3%) for the sampling period.6 The results are
generalizable to the 132 HMOs described in the sampling section, but not to those that didn't meet
our sampling parameters. However, the beneficiary universe from which we sampled our
enrollees and disenrollees was 96 percent and 99 percent, respectively, of enrollees and
disenrollees who were members of all 208 HMOs for 3 months or longer.7 Further, our universe
of enrollees and disenrollees was 87 percent and 85 percent of all Medicare risk enrollees and
disenrollees.

Because of the imbalance between enrollees and disenrollees, we primarily analyzed the two
groups separately.8 Comparisons between sub-populations form the basis for all tables in this
report, particularly when these groups differed markedly in reporting their HMO experiences. All
tables show the weighted percentages with the weighted number of respondents in parentheses.9


                                           )))))))))))
                                              A-2
Additionally, we computed 95 percent confidence intervals and statistical significance for key
questions (see Appendix D). A few of the confidence intervals are quite broad, particularly for
disenrollees, due to the small number of responses for some questions. Standard errors for the
weighted percentages and number of beneficiaries were corrected using the SUDAAN software.

Defining disabled, functionally limited, and comorbid sub-populations

A literature review was conducted of several recent studies of Medicare beneficiaries which
addressed less healthy sub-populations. Three categories of sub-populations were selected based
on definitions used in these studies and information available from our survey; functionally limited,
chronically ill and disabled. The definition of the disabled population was consistent across all of
the studies examined 10,11 which was Medicare beneficiaries who met the Medicare disability
criteria and were younger than age 65.

Functionally limited (or impaired) sub-populations were examined in two studies.12,13

However, the definitions given were quite general referencing only "Activities of Daily Living"

limitations and "functional impairment. We decided to examine a similar group because of the

expectation that this category would include beneficiaries who have more severe health conditions

or were quite frail. We defined the functionally limited as including respondents who identified

one or more of the following limitations to their activities of daily living: problems with getting in

and out of bed, problems with bathing or showering, using the toilet, or climbing one flight of

stairs.


The most variance we found in the literature defining these sub-populations was in categorizing
the "chronically ill" or "chronic conditions." A medical outcomes study of chronically ill HMOs
and fee-for-service systems used the following list of chronic illnesses: hypertension, heart attacks,
congestive heart failure and clinical depression.14 A recently issued GAO Report on chronically ill
Medicare beneficiaries in HMOs defined this sub-population as those with diabetes, ischemic heart
disease, congestive heart failure or chronic obstructive pulmonary disease.15 A literature survey of
multiple studies regarding quality of care and HMOs referenced research which also included
arthritis, cancer and stroke in their definitions of "chronically ill."16

Recent research has also identified comorbidity as a complication of health status which has
significant implications for health services utilization and the complexity of health care for such
individuals.17 Our indepth analysis showed this to be a more focused way to identify beneficiaries
with significant health conditions. We defined comorbid beneficiaries as respondents who
reported two or more health conditions from the following list of survey options: survey form;
heart attack or heart condition, cancer (not skin cancer), kidney failure, stroke, broken bones,
internal bleeding, pneumonia, diabetes, lung problems.

The unweighted sample sizes for these vulnerable sub-groups resulting from these definitions are
as follows: Disabled Enrollees - 91, Disabled Disenrollees - 98, Functionally Limited Enrollees -
258, Functionally Limited Disenrollees - 216, Comorbid Enrollees - 244, Comorbid Disenrollees -
207.




                                             )))))))))))
                                                A-3
APPENDIX A - ENDNOTES


1.	   Penchansky, Roy, DBA, and J. William Thomas, PhD, "The Concept of Access: Definition
      and Relationship to Consumer Satisfaction," Medical Care, February 1981, 12:2:127-140.

      Thomas, J. William, PhD, and Roy Penchansky, DBA, "Relating Satisfaction With Access
      to Utilization of Services," Medical Care, June 1984, 22:6:553-568.

2.    The Penchansky and Thomas five dimensions of access to services are:

      a.	    Availability - the relationship of the volume and type of existing services (and
             resources) to the client's volume and types of need. It refers to the adequacy of
             supply of medical providers, facilities and specialized programs and services, such
             as mental health and emergency care.
      b.	    Accessibility - the relationship between the location of supply and the location of
             clients, taking account of client transportation resources and travel time, distance
             and cost.
      c.	    Accommodation - the relationship between the manner in which the supply
             resources are organized to accept clients (including appointment systems, hours of
             operation, walk-in facilities, telephone services) and the client's ability to
             accommodate to these factors and the client's perception of their appropriateness.
      d.	    Affordability - The relationship of prices of services and the providers' insurance
             (or deposit requirements) to client's income, ability to pay and existing health
             insurance. Client perception of worth relative to total cost is a concern, as is client
             knowledge of prices, total cost and possible credit arrangements.
      e.	    Acceptability - the relationship of clients' attitudes about personal and practice
             characteristics of providers to the actual characteristics of existing providers, as
             well as to provider attitudes about acceptable personal characteristics of clients. In
             turn, providers have attitudes about the preferred attributes of clients or their
             financing mechanisms. Providers may be unwilling to serve certain types of clients
             or, through accommodation, make themselves more or less available.

3.	   Actually, the sample is a mix of HMOs and competitive medical plans (CMP). Since the
      rules governing their particpation in the Medicare risk program are the same, we use
      HMO to refer to both.

4.	   Of the 3,229 returned survey forms, 226 were not usable: 58 were returned for bad
      addresses, with no known forwarding address; 129 were not usable because the
      beneficiary was deceased or was unwilling/unable to complete the survey form; 39 were
      not usable because the beneficiary's responses indicated (s)he may not be referring to the
      sampled HMO, or few to none of the key questions were answered.

5.	   The range of response rates for unweighted data per HMO was 59 percent to 92 percent
      for enrollees and 43 percent to 84 percent for disenrollees.

6.    Formulas used to weight data:


                                          )))))))))))
                                             A-4
              Enrollees

                                                                 Enrollee universe per
                          HMO universe (N = 132)                   sampled HMO
                                                      X
                            HMO sample (N = 40)              Sampled enrollees per HMO

              Disenrollees
                                                               Disenrollee universe per
                          HMO universe (N = 132)                   sampled HMO
                                                      X
                            HMO sample (N = 40)             Sampled disenrollees per HMO



7.
                                  Comparison of Beneficiary Universe Sizes

                Stratum                       $ 3 months          $ 3 months        All members
                                             (132 HMOs)          (208 HMOs)         (208 HMOs)
                Enrollees                     3,218,351           3,335,189              3,719,713

                Disenrollees                      110,539          112,015                130,436



8.	    For those tables that do not show the proportion of all beneficiaries answering a question,
       that proportion is usually the same as or one point (+/-) that of the proportions shown for
       enrollees.

9.	    Respondents did not answer every survey question. Many respondents were not eligible
       to answer every item because the survey form used screening questions. Thus, the
       weighted value of the beneficiaries eligible to answer varied by question. Some
       beneficiaries simply did not answer questions for which they were eligible. To
       accommodate these two factors, we calculated a response rate for each question based on
       the weighted value of eligible respondents. Questions with response rates of less than
       50% are not reported. The majority of questions had response rates of 80% to 99%. In
       addition, percentages throughout the report are based only on the weighted responses to
       each question, not on the weighted value of all survey respondents.

10.	   Robert H. Miller and Harold S. Luft, "Does Managed Care Lead to Better or Worse
       Quality of Care," Health Affairs, September/October 1997.

11.	   Marsha Gold et al., "Disabled Medicare Beneficiaries In HMOs," Health Affairs,
       September/October 1997, pp. 151-152.

12.    Miller and Luft, 1997.

13.    Gold et al., 1997.



                                                   )))))))))))
                                                      A-5
14.	   John E. Ware et al., "Differences in 4-Year Outcomes for Elderly and Poor, Chronically Ill
       Patients Treated in HMO and Fee-For-Service Systems," The Journal of the American
       Medical Association, October 2, 1996.

15.	   U.S. General Accounting Office, "Medicare: Fewer and Lower Cost Beneficiaries With
       Chronic Conditions Enroll in HMOs," GAO/HEHS-97-160, 18 August 1997, p. 3.

16.    Miller and Luft, 1997.

17.    Ware Jr., et. al., (1996) and Newhouse et. al.(1997).




                                           )))))))))))
                                              A-6
                                          APPENDIX B

                                    SAMPLE DEMOGRAPHIC DATA - 1996

                                                 BY BENEFICIARY
                                                   Weighted Data
     Demographics                                       Enrollees                      Disenrollees

     SEX
       Female                                        56% (1,226,765)                   55% (34,004)
       Male                                          44% (968,928)                     45% (27,910)

     RACE/ETHNICITY
       White                                         83% (1,812,704)                   82% (50,565)
       Non-White                                     11% (242,742)                      8% (5,243)
       Unknown                                        6% (140,247)                     10% (6,106)

     AVERAGE AGE                                         73 Years                        72 Years
     EDUCATION
      < Than High School                              20% (432,333)                    19% (11,564)
      High School Diploma                             30% (648,906)                    24% (15,226)
      > Than High School                              44% (978,774)                    45% (27,790)
      No Response                                      6% (135,679)                    12% (7,335)

     MEDICARE CATEGORY
       Aged                                          96% (2,098,465)                   93% (57,687)
       Disabled/ESRD**                                4% (97,229)                       7% (4,227)
     HMO EXPERIENCE
       Prior Experience                              26% (560,948)                     21% (12,996)
       No Experience                                 66% (1,451,278)                   71% (39,212)
       No Response                                    8% (183,466)                      8% (4,853)

     AVERAGE LENGTH OF TIME
     IN HMO                                             34 Months                       21 Months




                                                       BY HMO


     HMOs                           MODEL TYPES                           TAX STATUS                  STATES
                              IPA        Group          Staff           Profit    Nonprofit           Number

     1996 (N=40)            29 (73%)    8 (20%)       3 (8%)           28 (70%)   12 (30%)              19




**
     No ESRD beneficiaries were selected in the disenrollee sample.

                                                       )))))))))))
                                                           B-1
                                 APPENDIX C

      SUPPLEMENTARY TABLES FOR BENEFICIARY SURVEY FINDINGS




                  Table C-1: Reasons Beneficiaries Joined HMOs by Sub-Populations

                                                Enrollees                     Disenrollees

Medicare Aged/Disabled                     Aged          Disabled         Aged         Disabled

Joined HMO for:

< more affordable care                      68%            67%             72%           48%
                                        (1,424,521)      (64,155)        (40,512)       (2,016)
< better quality care                       20%            37%             23%           31%
                                         (422,557)       (35,115)        (12,908)       (1,304)
< services not covered by Medicare          36%            70%             37%           58%
                                         (749,314)       (67,019)        (20,794)       (2,453)

Functional Limits                        No Limits      1+ Limits       No Limits      1+ Limits

Joined HMO for:

< more affordable care                      68%             71%            71%           65%
                                        (1,164,095)      (104,547)       (32,185)       (7,756)
< better quality care                       21%             21%            25%           17%
                                         (354,503)       (161,033)       (11,173)       (2,058)
< services not covered by Medicare          37%             43%            37%           40%
                                         (632,466)        (70,717)       (16,660)       (4,736)

Comorbidity                             <2 Illnesses   2+ Illnesses    <2 Illnesses   2+ Illnesses

Joined HMO for:

< more affordable care                      69%             64%            72%           60%
                                        (1,175,581)      (241,400)       (34,802)       (5,833)
< better quality care                       19%             25%            23%           26%
                                         (328,569)        (95,456)       (10,957)       (2,537)
< services not covered by Medicare          38%             36%            40%           28%
                                         (640,867)       (137,167)       (19,396)       (2,729)




                                           )))))))))))
                                              C - 1

                 Table C-2: Beneficiaries' Enrollment Experience by Sub-Populations

                                                     Enrollees                        Disenrollees

Medicare Aged/Disabled                         Aged            Disabled           Aged           Disabled

Were asked at application about health         15%                22%             17%               25%
problems, excluding kidney failure and       (221,010)          (16,325)         (7,252)           (933)
hospice care.

Did know from beginning PCP must                86%               84%              86%             85%
give referrals to specialists.              (1,707,238)         (77,347)         (46,228)         (3,544)

Functional Limits                            No Limits         1+ Limits        No Limits        1+ Limits

Were asked at application about health         16%                15%             16%              23%
problems, excluding kidney failure and       (188,259)          (43,020)         (5,499)          (2,171)
hospice care.

Did know from beginning PCP must                87%              83%               88%             80%
give referrals to specialists.              (1,433,664)        (294,197)         (38,458)         (8,631)

Comorbidity                                 <2 Illnesses      2+ Illnesses     <2 Illnesses     2+ Illnesses

Were asked at application about health         15%                15%             16%              22%
problems, excluding kidney failure and       (181,149)          (37,218)         (6,239)          (1,573)
hospice care.

Did know from beginning PCP must                87%              82%               87%             82%
give referrals to specialists.              (1,426,326)        (286,096)         (40,466)         (7,289)



                    Table C-3: Primary Physician Care by Comorbid Sub-Population

                                                         Enrollees                     Disenrollees

Primary Physician Care                         <2 Illnesses     2+ Illnesses     <2 Illnesses    2+ Illnesses

Primary physician did not take health              6%              14%              19%             17%
complaints seriously.                           (90,197)         (48,293)          (7,544)         (1,492)

Primary physician explained treatment             91%              86%              78%             72%
options                                       (1,127,161)        (289,295)        (26,239)         (5,979)

Cost most important to primary physician.          8%               6%              19%             21%
                                                (114,020         (18,076)          (5,847)         (1,375)
Believed care given by PCP was:

< excellent
                                                  48%               45%              35%             41%
< good                                         (751,985)         (160,539)        (14,565)         (3,500)
                                                  44%               38%             38%             25%
< fair                                         (694,642)         (136,548)        (15,822)         (2,154)
                                                   6%               12%             17%             21%
                                                (96,683)          (42,423)         (7,023)         (1,763)




                                               )))))))))))
                                                  C - 2

                           Table C-4: Beneficiaries' Perceptions of HMO Care
                      by Medicare Status and Functionally Limited Sub-Populations

                                                  Enrollees                     Disenrollees

Medicare Aged/Disabled                      Aged           Disabled         Aged        Disabled

Ease of obtaining care was:

< easy or very easy                           68%            45%             52%           45%
                                          (1,283,272)      (40,033)        (24,640)      (1,640)
< neither easy nor hard                       27%            31%             29%           18%
                                           (517,876)       (26,971)        (13,834)       (659)
< hard or very hard                           5%             24%             18%           37%
                                            (85,526)       (21,226)         (8,616)      (1,364)

HMO care caused health to:

< improve                                     44%             34%            30%           17%
                                           (813,276)       (29,458)        (13,691)       (537)
< stay the same                               54%             62%            59%           66%
                                          (1,007,339)      (53,440)        (26,360)      (2,140)
< worsen                                      3%               4%            11%           18%
                                            (46,894)        (3,449)         (4,888)       (563)

Functional Limits                         No Limits     1+ Limits         No Limits     1+ Limits

Ease of obtaining care was:

< easy or very easy                           70%             55%            55%          40%
                                          (1,092,719)      (184,029)       (21,128)      (4,388)
< neither easy not hard                       26%             35%            28%          29%
                                           (408,357)       (116,287)       (10,837)      (3,198)
< hard or very hard                            5%             11%            16%          31%
                                            (70,889)        (35,229)        (6,225)      (3,468)

HMO care caused health to:

< improve                                     43%             44%            34%          17%
                                           (661,669)       (148,583)       (12,162)      (1,738)
< stay the same                               56%             48%            58%          63%
                                           (867,462)       (162,160)       (20,778)      (6,295)
< worsen                                       1%              9%             9%          20%
                                            (20,861)        (29,482)        (3,228)      (1,947)




                                             )))))))))))
                                                C - 3

            Table C-5: Beneficiaries' Perceptions of HMO Care by Comorbid Sub-Population

                                                Enrollees                      Disenrollees

HMO Care                                <2 Illnesses   2+ Illnesses     <2 Illnesses   2+ Illnesses

Ease of obtaining care was:

< easy or very easy                         67%             66%             53%             47%
                                        (1,034,404)      (229,315)        (21,490)         (4,003)
< neither easy nor hard                     28%             27%             28%             28%
                                         (429,819)        (94,391)        (11,418)         (2,359)
< hard or very hard                          5%              7%             18%             25%
                                          (76,607)        (24,416)         (7,431)         (2,176)

HMO care caused health to:

< improve                                   41%             52%             28%             37%
                                         (622,048)       (187,868)        (10,754)         (2,982)
< stay the same                             58%             41%             63%             40%
                                         (871,125)       (147,742)        (24,060)         (3,186)
< worsen                                     1%              7%              9%             23%
                                          (21,894)        (26,665)         (3,257)         (1,880)




                                           )))))))))))
                                              C - 4

      APPENDIX D





STATISTICAL DATA FOR KEY QUESTIONS





             )))))))))))
                D - 1

                           Table D-1: Point Estimates, Confidence Intervals, and Statistical Significance by Functional Status

KEY: T = statistical significance tested                                                                                             ** = difference is significant at .05 level
                                                                         1+ Functional Limits                                       No Functional Limits
                                                        Point Estimate    Standard Error    95% Confidence         Point Estimate   Standard Error        95% Confidence
Proportion of beneficiaries:                                                                   Interval                                                      Interval

    Health at time of survey was poor to very poor.

T         < enrollees
T         < disenrollees                                    21.03             3.00              15.2 - 26.9   **        2.09            0.64                  0.8 - 3.3
                                                            34.23             3.59              27.2 - 41.3             4.85            1.06                  2.8 - 7.0
                                                                                                              **
    HMO care caused health to improve.

          < enrollees                                       43.67             4.59              34.7 - 52.7            42.69            1.94                38.9 - 46.5
T         < disenrollees                                    17.41             4.06               9.5 - 25.4   **       33.63            2.99                27.8 - 39.5

    HMO care caused health to worsen.

T         < enrollees                                        8.67             2.32               4.1 - 13.2   **        1.35            0.40                 0.6 - 2.1
T         < disenrollees                                    19.51             4.25              11.2 - 27.8             8.92            1.50                 6.0 - 11.9
                                                                                                              **
    Primary physician explained treatment options.

T         < enrollees
T         < disenrollees                                    84.99             2.64              79.8 - 90.2   **       91.23            0.90                89.5 - 93.0
                                                            68.47             5.21              58.3 - 78.7            79.10            2.87                73.5 - 84.7
                                                                                                              **
    Physician failed to give needed Medicare-
    covered services.

T         < enrollees                                        7.88             2.93               2.1 - 13.6   **        2.30            0.46                 1.4 - 3.2
T         < disenrollees                                    19.84             4.13              11.7 - 28.0            10.65            1.70                 7.3 - 14.0
                                                                                                              **
    Physician failed to admit beneficiary to hospital
    when needed.

T         < enrollees                                        2.89             1.55              0.0 - 6.0               1.19            0.44                  0.3 - 2.1
T         < disenrollees                                     8.18             3.08              2.1 - 14.2              3.99            1.69                  0.8 - 7.3



                                                                                      D - 2

                           Table D-1: Point Estimates, Confidence Intervals, and Statistical Significance by Functional Status

KEY: T = statistical significance tested                                                                                        ** = difference is significant at .05 level
                                                                    1+ Functional Limits                                       No Functional Limits
                                                   Point Estimate    Standard Error    95% Confidence         Point Estimate   Standard Error        95% Confidence
Proportion of beneficiaries:                                                              Interval                                                      Interval

    Physician failed to refer beneficiary to a
    specialist when needed.

          < enrollees                                   6.38             2.28               1.9 - 10.8             4.91            0.95                 3.0 - 6.8
T         < disenrollees                               25.16             5.31              14.8 - 35.6   **       11.56            1.82                 8.0 - 15.1

    Physician did not take health complaints
    seriously.

T         < enrollees                                  16.39             3.29               9.9 - 22.8   **        4.64            0.68                 3.3 - 6.0
T         < disenrollees                               23.90             3.69              16.7 - 31.1            16.62            2.19                12.3 - 20.9
                                                                                                         **
    Believed care given by PCP was excellent.

T         < enrollees                                  33.68             4.09              25.7 - 41.7   **       50.78            2.91                45.1 - 56.5
T         < disenrollees                               29.06             4.49              20.3 - 37.9            38.12            4.03                30.2 - 46.0
                                                                                                         **
    Believed care given by PCP was good.

T         < enrollees                                  49.66             3.36              43.1 - 56.2   **       41.34            2.52                36.4 - 46.3
T         < disenrollees                               28.97             4.19              20.8 - 37.2            37.11            2.32                32.6 - 41.7
                                                                                                         **
    Believed care given by PCP was fair.

T         < enrollees                                  11.86             3.38               5.2 - 18.5   **       6.40             1.14                 4.2 - 8.6
T         < disenrollees                               29.64             6.11              17.7 - 41.6            14.63            2.80                 9.1 - 20.1
                                                                                                         **
    Ease of obtaining care was hard or very hard

T         < enrollees                                  10.50             2.63               5.3 - 15.7   **        4.51            0.78                 3.0 - 6.0
T         < disenrollees                               31.38             2.42              20.2 - 42.6            16.30            2.42                11.6 - 21.0
                                                                                                         **




                                                                                 D - 3

                     Table D-2: Point Estimates, Confidence Intervals, and Statistical Significance by Medicare Aged/Disabled

KEY: T = statistical significance tested                                                                                   ** = difference is significant at .05 level
                                                                    Disabled                                                  Age 65 or Older

                                                         Point     Standard       95% Confidence          Point Estimate     Standard Error       95% Confidence
Proportion of beneficiaries:                            Estimate     Error           Interval                                                        Interval

    Health at time of survey was poor to very poor.

T         < enrollees
T         < disenrollees                                 24.33       6.61              11.4 - 37.3   **        4.52               0.61               3.3 - 5.7
                                                         31.70       6.01              19.9 - 43.5             9.15               1.55               6.1 - 12.2
                                                                                                     **
    HMO care caused health to improve.

          < enrollees                                    34.12       6.16              22.0 - 46.2            43.55               1.74              40.1 - 47.0
T         < disenrollees                                 16.56       5.37               6.0 - 27.1   **       30.47               2.18              26.2 - 34.7

    HMO care caused health to worsen.

          < enrollees                                     3.99       2.48              0.0 - 8.9               2.51               0.60               1.3 - 3.7
T         < disenrollees                                 17.68       6.38              5.2 - 30.2    **       10.88               1.69               7.6 - 14.2

    Primary physician explained treatment options.

          < enrollees
T         < disenrollees                                 92.03       3.09              86 0 - 98.1            89.47               0.91              87.7 - 91.3
                                                         61.03       8.83              43.7 - 78.3   **       78.48               2.55              73.5 - 83.5

    Physician failed to give needed Medicare-
    covered services.

          < enrollees                                     3.67       2.02               0.0 - 7.6              3.36               0.68               2.0 - 4.7
T         < disenrollees                                 27.54       8.91              10.1 - 45.0   **       11.00               1.61               7.8 - 14.2

    Physician failed to admit beneficiary to hospital
    when needed.

          < enrollees                                     4.01       2.69              0.0 - 9.3               1.44               0.48               0.5 - 2.4
T         < disenrollees                                 19.23       8.87              1.8 - 36.6    **        3.82               1.40               1.1 - 6.6



                                                                              D - 4

                     Table D-2: Point Estimates, Confidence Intervals, and Statistical Significance by Medicare Aged/Disabled

KEY: T = statistical significance tested                                                                              ** = difference is significant at .05 level
                                                               Disabled                                                  Age 65 or Older

                                                    Point     Standard       95% Confidence          Point Estimate     Standard Error       95% Confidence
Proportion of beneficiaries:                       Estimate     Error           Interval                                                        Interval

    Physician failed to refer beneficiary to a
    specialist when needed.

T         < enrollees                               16.26       6.10               4.3 - 28.2   **        4.40               0.68               3.1 - 5.7
T         < disenrollees                            36.15       8.27              19.9 - 52.4            12.65               2.04               8.7 - 16.6
                                                                                                **
    Physician did not take health complaints
    seriously.

          < enrollees                               12.83       5.38               2.3 - 23.4             6.75               0.93               4.9 - 8.6
T         < disenrollees                            39.27       8.24              23.1 - 55.4   **       17.05               1.86              13.4 - 20.7

    Believed care given by PCP was excellent.

          < enrollees                               37.73       7.69              22.7 - 52.8            48.16               3.05              42.2 - 54.1
T         < disenrollees                            33.18       8.00              17.5 - 48.9   **       36.35               2.54              31.4 - 41.3

    Believed care given by PCP was good.

          < enrollees                               44.71       9.67              25.8 - 63.7            42.99               2.36              38.4 - 47.6
          < disenrollees                            23.97       7.32               9.6 - 38.3            36.74               2.32              32.2 - 41.3

    Believed care given by PCP was fair.

          < enrollees                               14.26       5.21               4.0 - 24.5             6.90               1.49               4.0 - 9.8
          < disenrollees                            29.14       8.65              12.2 - 46.1            16.75               2.03              12.8 - 20.7

    Ease of obtaining care was hard or very hard

T         < enrollees                               24.06       6.15              12.0 - 36.1   **        4.53               0.74               3.1 - 6.0
T         < disenrollees                            37.24       8.91              19.8 - 54.7            18.30               3.00              12.4 - 24.2
                                                                                                **




                                                                         D - 5

                             Table D-3: Point Estimates, Confidence Intervals, and Statistical Significance by Comorbidity

KEY: T = statistical significance tested                                                                                           ** = difference is significant at .05 level
                                                                           2+ Illnesses                                               <2 Illnesses
                                                        Point Estimate   Standard Error   95% Confidence         Point Estimate   Standard Error        95% Confidence
Proportion of beneficiaries:                                                                 Interval                                                      Interval

    Health at time of survey was poor to very poor.

T         < enrollees
T         < disenrollees                                    17.39            3.70             10.1 - 24.6   **        2.72            0.64                  1.5 - 4.0
                                                            36.36            4.88             26.8 - 45.9             5.82            1.16                  3.5 - 8.1
                                                                                                            **
    HMO care caused health to improve.

T         < enrollees                                       51.86            3.24             45.5 - 58.2   **       41.06            1.86                37.4 - 44.7
T         < disenrollees                                    37.05            6.19             24.9 - 49.2            28.25            2.20                23.9 - 32.6
                                                                                                            **
    HMO care caused health to worsen.

T         < enrollees                                        7.36            2.91              1.7 - 13.1   **        1.45            0.40                 0.7 - 2.2
T         < disenrollees                                    23.36            4.78             14.0 - 32.7             8.55            1.44                 5.7 - 11.4
                                                                                                            **
    Primary physician explained treatment options.

          < enrollees
          < disenrollees                                    85.91            2.56             80.9 - 90.9            90.93            1.13                88.7 - 93.1
                                                            72.25            4.45             63.5 - 81.0            78.08            2.41                73.4 - 82.8

    Physician failed to give needed Medicare-
    covered services.

T         < enrollees                                        8.52            2.99             2.7 - 14.4    **        2.30            0.53                 1.3 - 3.3
          < disenrollees                                    11.78            3.63             4.7 - 18.9             12.36            2.22                 8.0 - 16.7

    Physician failed to admit beneficiary to hospital
    when needed.

T         < enrollees                                        3.56            1.45             0.7 - 6.4     **        0.85            0.36                  0.1 - 1.6
T         < disenrollees                                    13.10            3.46             6.3 - 19.9              2.59            2.59                  0.0 - 5.5
                                                                                                            **



                                                                                     D - 6

                              Table D-3: Point Estimates, Confidence Intervals, and Statistical Significance by Comorbidity

KEY: T = statistical significance tested                                                                                      ** = difference is significant at .05 level
                                                                      2+ Illnesses                                               <2 Illnesses
                                                   Point Estimate   Standard Error   95% Confidence         Point Estimate   Standard Error        95% Confidence
Proportion of beneficiaries:                                                            Interval                                                      Interval

    Physician failed to refer beneficiary to a
    specialist when needed.

          < enrollees                                   7.98            2.47              3.1 - 12.8             4.44            0.85                 2.8 - 6.1
T         < disenrollees                               20.67            4.60             11.7 - 29.7   **       12.66            2.73                 7.3 - 18.0

    Physician did not take health complaints
    seriously.

T         < enrollees                                  13.85            3.58             6.8 - 20.9    **        5.81            0.82                 4.2 - 7.4
          < disenrollees                               16.94            4.39             8.3 - 25.5             18.78            2.23                14.4 - 23.2

    Believed care given by PCP was excellent.

          < enrollees                                  44.97            5.45             34.3 - 55.7            48.08            2.91                42.4 - 53.8
          < disenrollees                               41.32            7.90             25.8 - 56.8            35.00            2.46                30.2 - 39.8

    Believed care given by PCP was good.

          < enrollees                                  38.25            3.26             31.9 - 44.6            44.41            2.62                39.3 - 49.5
T         < disenrollees                               25.43            6.48             12.7 - 38.1   **       38.02            2.72                32.7 - 43.4

    Believed care given by PCP was fair.

          < enrollees                                  11.88            4.58              2.9 - 20.9             6.18            0.98                 4.3 - 8.1
          < disenrollees                               20.81            3.93             13.1 - 28.5            16.88            2.25                12.5 - 21.3

    Ease of obtaining care was hard or very hard

          < enrollees                                   7.28            2.20              3.0 - 11.6             4.97            0.76                 3.5 - 6.5
          < disenrollees                               25.29            6.00             13.5 - 37.1            18.42            2.80                12.9 - 23.9




                                                                                D - 7

APPENDIX E





AGENCY COMMENTS





    )))))))))))
       E - 1

)))))))))))
   E - 2

)))))))))))
   E - 3

)))))))))))
   E - 4

)))))))))))
   E - 5

)))))))))))
   E - 6

)))))))))))
   E - 7

